La
I

C@OCKLE

2311 Douglas Street L ega ] Bri e f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-288

JAVIER SANCHEZ, GREGORY CASORSO,
and MICHAEL MARR,
Petitioners,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE
1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 5th day of December, 2019, send out

from Omaha, NE | package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

Dennis P. Riordan
Ted Sampsell-Jones

Jeffrey L. Fisher
Counsel of Record

Donald Horgan O°’MELVENY & MYERS LLP
RIORDAN & HORGAN 2765 Sand Hill Road

1611 Telegraph Ave. Menlo Park, CA 94025

Suite 806 (650) 473-2633

Oakland, CA 94612 jifisher@omm.com

(415) 431-3475

Counsel for Petitioners

Subscribed and sworn to before me this 5th day of December, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths,

PATRICIA BILLOTTE

General Notary . Mette & 2 fs L,
State of Nebraska . 7
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39152

 

 
Noel J. Francisco
Solicitor General
Counsel of Record
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States of America
